-program

 Dr. h-te
 that was reviewed by Dr.


 scientists at (       t
                           - --   CLOSEOUT FOR M95020006

          On February 22, 1995, Dr. 1IIIR),
                          of NSF's Division of




                                  h
                                     1.
                                      of the
                                                   -

                                           e company).
                                                          - -officer in the
                                                   a program        _ " _


                                                                                   brought a
 review containing an allegation of misconduct to OIG's attention. The allegation concerned
                         subject) of -                The subject had submitted a proposal'
                                                                                 (the
 reviewer). The reviewer informed NSF that the proposal appeared to be "based on two
 recently pub1ished"papers that had been alleged to involve work stolen from unnamed


       OIG contacted the reviewer, who said he had no knowledge of the factual basis
underlying this allegation and referred us to ~              r(the complainant),
                                                                              .   the company's
research director. The complainant gave OIG a brief oral account of his company's
collaboration with the subject. The account suggested the possibility that the subject, in
preparing work that formed the basis for her proposal to NSF, had committed intellectual theft
and violated the spirit of her agreement to collaborate with scientists at the company. The
complainant said that, in response to a written request from OIG, he could provide a
previously written account of these events that would specify and clarify his allegations.
Despite a written request and repeated oral reminders, however, he failed to do so.

        From the complainant's oral account, it appeared unlikely to OIG that misconduct
occurred and likely that, if any misconduct had occurred, it did not directly involve the
preparation of the subject's NSF proposal and fell outside OIG's jurisdiction. Further
information would be required to be certain of these points. OIG was unable to obtain such
information from the complainant and unwilling to raise the specter of misconduct with third
parties, such as the other scientists at the company with whom the subject had collaborated,
when there was so little reason to believe that misconduct had occurred involving an NSF
proposal or award.

        This inquiry is closed and no further action will be taken on this case.

cc: IG, AIGO, Legal, Investigations




--"
' The proposal,,-          was entitled
                       NSF declined to fund it.


                                         page 1 of 1                               M95-06
